 

OFFICE OF THE ARIZONA ATTORNEY GENERAL Tucson Office

MARK BRNOVICH APPEALS AND CONSTITUTIONAL LITIGATION Division (520) 628-6520
ATTORNEY GENERAL Fax-(520) 628-6878
CAPITAL LITIGATION SECTION

March 30, 2020
Via Federal Express

Scott Harris, Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543

Re: Leroy D. Cropper v. State of Arizona, U.S. Supreme Court No. 19-1100.
Dear Mr. Harris:

Pursuant to Supreme Court Rule 30.4 and this Court’s order of March 19, 2020,
Respondent, the State of Arizona, respectfully requests a 60-day extension of time in
which to file its brief in opposition to Leroy Cropper’s petition for certiorari in this Court,
to and including June 8, 2020. The current deadline to file the brief in opposition is April
8, 2020.

Respondent’s counsel of record has been delayed in drafting the brief in opposition
in this matter due to her caseload. In particular, counsel of record is now completing two
state-court briefs whose deadlines have already been extended, and she currently has a
state supreme court argument scheduled for May 5, 2020, in State v. Strong, Arizona
Supreme Court No. CR-17-0201-AP. Further, the current COVID-19 health crisis has
impacted the time counsel of record can devote to the drafting of the brief in opposition
and to her other professional obligations. Respondent respectfully requests that this
Court grant an extension of time to and including June 8, 2020, in which to complete and
file the brief in opposition. Counsel of record has contacted opposing counsel, Melissa
Arbus Sherry, who has indicated that she would not object to a 45-day extension.

400 W. Coneress, SuiTe.-315, TUCSON, ARIZONA 85701-1367 © PHONE (520) 628-6520 ¢ FAX (520) 628-6878
Leroy Cropper v. State of Arizona
Page 2

Thank you for your attention to this matter.

Sincerely yours,

MaRK BRNOVICH
Attorney General

awa) Pras

LAUuRA P. CHIASSON
Assistant Attorney General
(Counsel of Record)
